expense tracking to link expenditures against CPB revenues. For the separate radio
and television station Annual Financial Reports (AFR) surveyed, 8 of 23 radio stations
(35 percent) did not report CPB restricted portion of their CSG on their AFR, and 2 of
the 17 television stations (12 percent) did not report the Interconnection Grant on their
AFR even though the AFR contains separate lines for these funds. In addition, five
television stations in our survey received Distance Service Grants. However, three
stations improperly included them as part of the Community Service Grant on their AFR
as opposed to reporting them under “Other CPB Funds” on their AFR. We could not
determine whether one station included the grant on their AFR and the fifth station
correctly included the grant in the “Other CPB Funds” category on their AFR.

We were often told that the Radio/Television CSG funds were used to pay the stations’
NPR or PBS dues and the managers did not see the point to separately account for the
CPB grant funds. However, we were not able to trace the CPB grant funds through the
accounting system and were not able to independently verify what expenses were paid
from the CPB grant funds. We were also unable to determine whether the CPB grant
funds were expended during the grant spending period, or expended for their intended
purposes. We found that there was no account code linking CPB funds received and
expenses paid. We had to rely on the oral assertions of station officials that NPR or
PBS payments were made with their CPB funds.

We also found that 25 of the 29 licensees (86 percent) were not in compliance with one
or more of the statutory provisions of the Act regarding open meetings of its Board of
Directors (BOD) or CAB, making financial records available to the public, and complying
with EEO requirements to make information available to the public. In addition, we
found that 24 of the 29 licensees (83 percent) had not documented one or more of their
policies/operating procedures explaining how they complied with the five requirements
of the Act.

While management officials at the public radio and television stations surveyed annually
certified that they were in compliance with these requirements, our survey found that
they were not always in compliance with the financial recordkeeping and
Communications Act requirements. The May 2009 amendments to the federal False
Claims Act make continuing non-compliance with Communications Act and certification
requirements considerably more significant because station officials can now be
penalized for their continuing false certifications.

Additionally, we found that the independent public accountant (IPA) for 8 of the 29
licensees (28 percent) the independent public accountant (IPA) who audited their
stations’ financial statements and attested to the accuracy of the CPB Annual Financial
Report (AFR) did not test for compliance with the CPB requirements for claiming Non-
Federal Financial Support (NFFS). We identified four additional cases where the IPA
was not independent to render an opinion because they prepared the AFR that they
attested was correct (three licensees) or made an error in preparing the AFR (one
licensee).




                                            2
The lack of discrete accounting for CPB funds by station grantees, inaccurate AFR
reporting of CPB funds received, and concerns over the reliability of IPA attestations
and AFR certifications made to CPB create vulnerabilities. These issues coupled with
CPB’s practice not to require grantees to report CSG expenditures to CPB, limited CPB
oversight mechanisms. The lack of an integrated system to track and oversee grantees
CPB financial information on a grant basis hindered CPB’s ability to maximize oversight
efforts. These factors prevent CPB from effectively overseeing the use of CPB funds to
ensure CPB grant funds were spent within grant periods, final CPB costs were
accurately reported, and unused CPB funds were refunded to CPB.

In response to the draft report, CPB management stated that they take compliance
matters very seriously, and embrace the fundamental concerns outlined in the draft
report. The results from the survey indicate that more work may be needed to ensure
grantee compliance. They stated that as a matter of course they have been proactive in
using various means to communicate to grantees the importance of complying with Act
requirements.

They stated that in addition to considering the recommendations proposed by the OIG,
CPB is examining the practicality and potential effectiveness of expanded compliance
training or curriculum targeting station chief executives and anyone who is responsible
for compliance with CPB requirements. CPB is also developing a policy that would
impose financial penalties on stations found to be non-compliant with the Act, the CSG
General Provisions, or the Financial Reporting Guidelines.

CPB management also stated that over the past few years, CPB has taken strong and
focused action to more thoroughly educate all stations regarding their responsibilities
with respect to compliance. To that end, CPB has:

   •   increased the number and quality of training sessions and resources available to
       grantees;

   •   directly communicated the importance of understanding and complying with the
       terms of their grants as outlined in the General Provisions to grantee executives
       and other station representatives responsible for compliance; and

   •   restructured and rewritten the Financial Reporting Guidelines and CSG General
       Provisions and Eligibility Criteria used by the grantees for greater clarity, ease of
       reference, and comprehension.

CPB management also stated that when specific instances of non-compliance have
been discovered, either by CPB or the OIG, CPB has addressed them directly with the
station. This has included employing punitive measures such as recovering CSG
dollars, withholding CSG payments, and, in three recent cases, terminating a station’s
participation in the CSG program.




                                             3
CPB management’s response is attached in Exhibit B. As stated above, CPB
management generally agreed with our findings and presented their proposals for
implementing our recommendations. Based on CPB management’s response to the
draft report, we consider recommendations 1 through 8 resolved but open pending
CPB’s accomplishment of their various system enhancements to improve both CPB and
grantee accountability over the receipt and expenditure of CPB grant funds. Based on
management response, recommendation 9 remains unresolved until more specificity is
provided by CPB on its plans for developing an enhanced internal grant-tracking
system.

In accordance with CPB audit resolution procedures, CPB management is responsible
for determining the corrective actions to be taken on the recommendations. Please
provide us with a written response to our findings and recommendations within 180
days of this final report. For corrective actions planned, but not completed by the
response date, please provide specific milestone dates when corrective actions will be
completed.

This survey was conducted in accordance with the President’s Council on Integrity and
Efficiency/Executive Council on Integrity and Efficiency’s Quality Standards for
Inspections, dated January 2005. Our survey was performed during the period August
2009 through May 2010. A full discussion of our scope and methodology is provided in
Exhibit A.


                                  BACKGROUND
CPB’s issuance of grants to public broadcasting stations whether community service,
interconnection, digital, federal Ready-To-Learn, or other CPB grants is conditioned on
grantees complying with specific grants terms and conditions, as well as, eligibility
requirements including requirements contained in CPB provisions of the Act. Further,
there are specific federal accounting and reporting requirements for the 13 licensees in
our sample that received federal Ready-To-Learn grants administered by CPB. The
terms and conditions for CPB grant eligibility and the Act requirements are specific and
detailed and include many aspects of station operations. They range from the minimum
signal strength and number of hours “on air” to specific grant accounting requirements
and requirements for open meetings, open financial records, EEO, and donor lists.

However, stations that are owned and operated by a state, a political or special purpose
subdivision of a state, or a public agency are not required to have a CAB. Further,
meetings of a university BOD that do not “relate to public broadcasting,” do not fall
within the requirements of the open meeting section of the Act. A total of 18 licensees
in our survey were not subject to the CAB requirements and possibly open meeting
requirements.

Station executives and their independent public accountants formally communicate with
CPB using the Integrated System Information System (ISIS). ISIS is a web-based


                                           4
portal that stations use annually to complete their CSG legal forms and AFR for
electronic submission to CPB. The AFR is used to collect station revenue and expense
information in a standardized format for each fiscal year. Stations are required to report
all revenue and expense information and reconcile this information to their audited
financial statements. The AFR is used to identify revenues reported on the financial
statements that qualify as NFFS. In addition, stations certify that they are in compliance
with CPB requirements as part of the yearly grant application process. Non-compliance
with these terms and conditions for eligibility and the provisions of the Act are grounds
for termination of the CPB grant and return of the funds.

Over the last 10 years, the Office of Inspector General has audited 37 different public
broadcasting stations and routinely reviewed compliance with the CPB grant terms and
conditions for eligibility, as well as, compliance with requirements of the Act. Our audit
results during the period September 1999 through March 2010 showed that station non-
compliance with specific requirements of the Act ranged from 15 percent for either not
establishing a CAB or having it meet regularly to 57 percent for not providing adequate
advance notice of public meetings.

We initiated this survey to gain an understanding of the current level of compliance/non-
compliance with the CPB grant terms and conditions for eligibility regarding grant
accountability and compliance with the five specific requirements of the Act.




                                            5
                    FINDINGS AND RECOMMENDATIONS

Lack of Discrete Accounting for CPB Grants
Our survey showed a high rate of non-compliance with CPB grant requirements for
maintaining discrete accounting for the annual Community Service and Interconnection
Grants awarded to public broadcasting stations. This included maintaining discrete
accounting for the restricted portion of the Radio CSG and the Television
Interconnection Grant. We found that 15 of 29 licensees (52 percent) did not maintain
discrete accounting records for how their stations expended these grant funds. At the
station level, 19 radio and 9 television stations did not maintain discrete accounting
records for their CSG or Interconnection grant expenditures.

CPB’s General Provisions and Eligibility Criteria for TV and Radio CSGs, Section 10.B,
Record Keeping and Audit Requirements, state:

      All Recipients of CSG funds must satisfy the requirements of the
      Communications Act of 1934, as amended, 47 U.S.C. 396(l)(3)(B, C, and D). In
      general, these provisions set requirements for record-keeping and auditing and
      require that CPB or its representatives have access to financial records.

      Furthermore, discrete accounting and proper documentation shall be maintained
      to support all CSG expenditures. All CSG expenditures must meet the test of
      allowability as stated throughout this document and as provided by all other CSG
      related documents and policies. CSG funds which cannot be accounted for
      because of recipient’s failure to comply with this requirement may be subject to
      repayment to CPB. The recipient shall maintain such other records that CPB
      may require to facilitate an effective audit.

Likewise, the Interconnection Grant agreement signed by each grantee states:

      The Interconnection Grant funds must be used to pay for interconnection and/or
      program distribution costs. All interconnection expenditures must be supported
      by documentation (invoices, contracts, bills of sale, check stubs, etc.). Such
      documentation must be retained in the files of the recipient for three years after
      the end of the expiration period, and must be made available for CPB review
      upon request. Expenditures that cannot be supported with documentation may
      be disallowed. Undocumented expenditures cannot be replaced with other
      station expenditures after the expenditure period ends. All disallowed
      expenditures are subject to refund to CPB.

In response to our inquiries about the lack of discrete accounting for CPB grant funds;
the answer that we received most often from station managers was that all of the CPB
CSGs and Interconnection Grants went to pay either the PBS or NPR bills. They saw
no point in separating CPB expenditures from other station expenditures since they
were all spent on public broadcasting activities. Had we traced these NPR or PBS


                                            6
payments through the accounting system, we could not have independently verified that
they were paid from CPB CSG (unrestricted and restricted) and interconnection grant
funds because there was no account code linking CPB funds received and expenses
paid. We had to rely on management’s oral assertions that they expended the CPB
funds on PBS and NPR billings.

CPB grant provisions require stations to maintain discrete accounting records for their
CSG funds. This survey showed that stations generally were not maintaining discrete
accounting records of CSG expenditures.

Recommendations
We recommend that CPB management:

   1) reinforce the requirement that stations comply with CPB’s discrete accounting
      requirements; and

   2) consider programming ISIS to identify for CPB Grants Administration review a
      station’s AFR that did not properly identify the restricted portion of the Radio
      CSG, Television Interconnection, Distance Service Grant or other specified CPB
      grants on their AFRs.

       Management Response

For recommendation 1, CPB management stated that they agreed that reinforcing
station compliance with the discrete accounting requirements was necessary. In
addition to increasing its communication efforts to stations regarding this matter, they
plan to incorporate a definition of its discrete accounting requirement in all General
Provisions and Eligibility Criteria documents, i.e., requiring a unique general ledger code
that identifies CSG funds and related expenditures.

For recommendation 2, CPB management stated that they understand the concern of
this finding and will explore how best to ensure the specified grants are reported
correctly. They may address this through ISIS modifications to either add a flag or
additional reporting lines to the AFR for specific revenue items.

       OIG Review and Comments

Based on CPB’s response, we consider recommendations 1 and 2 resolved but open
pending receipt of documentation evidencing that they have completed the actions
proposed in its response.




                                            7
Non-Compliance with Communications Act and CPB Documentation
Requirements
We identified that 26 of the 29 public broadcasting station licensees (90 percent) were
not in complete compliance with one or more of the statutory provisions of the Act or
CPB’s minimum compliance requirements. Additionally, 19 of the 29 licensees did not
comply with requirements for either providing adequate advance notice of upcoming
Board of Director or CAB meetings, or having financial or EEO records available for
public review. Twenty four licensees were not in compliance with CPB’s minimum
compliance requirements, because they had not documented one or more of their
policies/operating procedures explaining how they complied with the various
requirements of the Act.

Station managers frequently told us that they were not aware of the various Act
requirements. When station grantees fail to comply with the statutory provisions of the
Act and CPB’s minimum compliance requirements, the public is denied the
transparency and openness of station operations envisioned by the Act.

The following table summarizes the non-compliance issues that we identified.

                                                                             Type of Licensee
                                                                          State &
                Requirements                        Community           Local Gov.       University                        1
                                                                                                                    Total
                                                     #    %             #       %        #       %              #              %
    Advance Notice of Board Meetings:
       BOD Not Properly Announced                   4/9      44%       N/A       --        N/A        --       4/9         44%
       CAB Not Properly Announced                   1/9      11%       N/A       --        1/2      50%       2/11         18%
    Financial Records Not Available                 5/9      55%       2/4     50%         7/16     44%       14/29        48%
    EEO Records Not Available                       1/9      11%       3/4     75%         1/16      6%        5/29        17%
    Procedures Not Documented                       8/9      89%       4/4     100%       12/16     75%       24/29        83%

The Public Broadcasting Act prohibits the distribution of federally appropriated funds to
the licensee of a public broadcasting station unless they comply with the open
meetings, open financial records, EEO, as well as, donor lists and political activities
requirements. To illustrate, for open meetings the law states:

         Section 396(k)(4) of the Communications Act provides:

         Funds may not be distributed pursuant to this subsection to the Public
         Broadcasting Service or National Public Radio (or any successor organization),
         or to the licensee or permittee of any public broadcast station, unless the
         governing body of any such organization, any committee of such governing body,
         or any advisory body of any such organization, holds open meetings preceded by
         reasonable notice to the public.
1
   Not all licensees were required to have a Board of Directors (BOD) or Community Advisory Board (CAB). State and local
government licensees are not required to have a BOD or CAB. Meetings of university BODs that do not “relate to public
broadcasting,” do not fall within the requirements of the open meeting section of the Act.




                                                               8
The Act contains similar requirements for open financial records and EEO reports.

   Open Meetings

Our survey identified that 4 of 9 community licensees (44 percent) did not properly
announce that their BOD meetings were open to the public. Two of the four did not
inform the public that their meetings were open to the public, one station did not give
notice of the meeting seven days in advance of the meeting and one station did not
explain their open meeting policy on-air three consecutive days each calendar quarter.
One of the four did not announce that their CAB meetings were open to the public. In
addition, one private university licensee that had a CAB did not properly announce that
their CAB meetings were open to the public. Not properly announcing that meetings of
the BOD and CAB were open to the public did not provide the public with the
transparency envisioned by the Act or CPB’s guidelines.

The minimum compliance for “reasonable notice” as stated in CPB’s explanation of the
Act requires stations to “Give reasonable notice to the public of the fact, time and place
of an open meeting at least one week (seven days) in advance of the scheduled date . .
. .” CPB’s explanation of the Act also requires stations to provide three types of notice.

      1. Notice is placed in the "Legal Notices" or the radio and television
         schedules section of a local newspaper in general circulation in the
         station's coverage area; or, notice is available through a recorded
         announcement that is accessible on the station's phone system; or,
         notice is available through an announcement that is accessible on
         the station's web page; and

      2. Notice is communicated by letter, e-mail, fax, phone, or in person to
         any individuals who have specifically requested that they be notified;
         and

      3. The station makes on-air announcements on at least three
          consecutive days once during each calendar quarter that explain the
          station's open meeting policy and provides information about how
          the public can obtain information regarding specific dates, times, and
          locations.

   Open Financial Records

Our survey showed that 14 of the 29 licensees (48 percent) did not fully comply with the
statutory requirements of the Act for maintaining financial records available for public
inspection. These licensees either did not have any of the required CPB documents
readily available for public inspection (eight licensees) or did not have all the required
documents available for public inspection (six licensees).




                                            9
CPB addresses the open financial records requirement in its minimum compliance
requirements by stating that the following documents must be made available for public
inspection: a) Annual Financial Report (AFR) filed with CPB; b) audited financial
statements, and c) other information regarding finances submitted to CPB related to any
funding agreement with CPB that requires a financial report must be made available for
public inspection.

   Equal Employment Opportunity

Our survey showed that 5 of 29 licensees (17 percent) did not have readily available for
public inspection copies of the station’s employment statistical report filed with CPB.
CPB guidelines suggest that the employment portion of the Station Activity
Benchmarking study (SABS) or the Station Activities Survey (SAS) that identifies by
race and sex the number of employees in eight listed job categories and the number job
openings occurring during the year be made available for public inspection.

   Documenting Implementing Policies and Procedures

The most common problem that we found when surveying public broadcasting station
compliance with the Act was the lack of implementing policies and procedures
describing how the station complied with the requirements of the Act. Twenty four of
the 29 licensees were not in compliance with CPB’s minimum requirements because
they had not documented one or more of their policies/operating procedures explaining
how they complied with the various requirements of the Act. While this is a significant
rate of non-compliance with one of CPB’s minimum compliance requirements, we were
encouraged that as a result of this survey management at nine licensees (nine radio
and four television stations) immediately began drafting the appropriate policies and
procedures documents.

CPB provides guidance for developing implementing instructions for Communication Act
requirements. Specifically, each recipient of a CPB station grant is required to develop
documentation indicating the manner of compliance with requirements. These include
requirements for holding open Board and CAB meetings and the methods used to give
reasonable notice to the public; the types of financial records and EEO information
made available for public inspection and the methods used to make them accessible;
and the manner of compliance with the donor list and political activities requirements.
The documentation shall be kept at a reasonable location by each station and made
available to CPB, upon request, to determine the fact and extent of compliance.

These policies are essential to ensure compliance with the Act and to provide the public
with information about how the station complies with these requirements. For example,
the lack of a written policy on a station’s open meeting procedures hinders the ability of
the public to obtain information about upcoming dates, times, and locations of Board of
Directors, CAB, and other meetings. Without written policies describing how a station
complies with the open financial records and EEO requirements, the public cannot
readily determine the type of records available for public inspection, the mechanisms for



                                           10
obtaining and reproducing available records, as well as, any limitations on access to
specific records.

              *      *      *      *      *        *    *      *      *      *

Discussion with station officials about these requirements disclosed they were not
always fully aware of the Act’s requirements. CPB requires that each recipient of a CPB
station grant certify its continued compliance with the Act. This annual certification is
part of the Certification of Eligibility form that must be completed by each station when
applying for a CSG.

Station officials in our survey completed these certifications affirmatively as part of the
grant application and grant award process. These certifications indicated that the
station complied with all Act requirements including, conducting open meetings, having
open financial records, making EEO employment information available to the public,
and documenting procedures for fulfilling Act requirements. The CSG Agreement also
requires station managers to attest to their continuing compliance with the CSG General
Provisions and Eligibility Criteria. We believe that the results of our survey demonstrate
that these self-certification processes are not totally effective to ensure compliance with
the requirements of the Act.

Station officials must take these certifications more seriously or they now risk violating
the federal False Claims Act Amendments. In May 2009, when the federal False
Claims Act was amended to include programs in which the federal government had a
substantial interest, as a result, CPB grants came under its purview. This means that
station officials who make false claims as part of the grant award process can be
subjected to civil penalties of not more than $10,000 for each false statement or
certification made in connection with requesting a grant. We believe that this change in
federal law is an acknowledgement and recognition of the seriousness of the
certification process that CPB relies on when making grants.

Recommendations

We recommend CPB management:

   3) Reinforce the requirement to fully comply with all requirements of the Act by
      including generic language from the Act in the CSG agreement stating that grant
      funds may not be distributed to the licensee of a public broadcasting station that
      is not in compliance with the requirements of the Act. Appropriate language
      discussing the penalties provided for under the federal False Claims Act
      Amendments should also be included in the discussion of the CPB requirements
      for compliance.




                                              11
   4) Develop a policy to:

       a) reduce CSG funding for stations that violate provisions of the Act until
          compliance is achieved; and

       b) suspend stations from the CSG program for repeat violations of the Act.

   5) Work with the Office of Inspector General to develop guidance to expand the
      independent public accountants’ attestation of the station’s AFR to include testing
      of the station’s compliance with the Communications Act requirements for open
      public meetings, open financial records, CAB, EEO, and donor lists and political
      activities.

       Management Response

For recommendation 3, CPB management stated that they agreed to reinforce the
requirement for full compliance, by including language from the Act in the CSG
agreement. As part of its annual revision process to CPB’s general eligibility criteria,
CPB stated that they will strengthen the language regarding compliance with the
provisions of the Act, to better communicate that compliance is required before CPB
can release funds to a grantee. Further, since a false certification could result in a
station being sued in Federal Court under the False Claims Act, CPB will include a
reference to a station’s potential liability under the False Claims Act in the language, as
well.

For recommendation 4, CPB management stated that they agreed that stations must be
held accountable. CPB is developing and will consult with the public broadcasting
system on developing a policy that would impose financial penalties or suspension on a
station found to be non-compliant with the Act.

For recommendation 5, CPB management stated that CPB welcomes the opportunity to
work with the OIG on Recommendation 5 to developing additional guidance to
independent public accountants to address compliance with Communications Act
requirements within the scope of its attestation examination.

       OIG Review and Comments

Based on CPB’s response, we consider recommendations 3, 4, and 5 resolved but
open pending receipt of documentation evidencing that they have strengthened the
language in the general eligibility criteria regarding compliance with the Act, including
potential financial penalties for non-compliance imposed by CPB and resulting from the
provisions of the False Claims Act, as well as, expanded the scope of the IPA’s
attestation work to include Communications Act compliance.




                                            12
Reliability of IPA Attestation Certifications
Our survey identified problems in 12 of 29 licensees’ (41 percent) independent public
accountants’ (IPA) attestation work. We found that 8 of 29 IPAs’ work did not conduct
tests for compliance with the specific CPB criteria and requirements for claiming non-
federal financial support (NFFS). We identified 4 additional cases where the IPA was
not independent to render an opinion because they prepared the AFR (3 licensees) or
made an error in preparing the AFR (1 licensee).

The law (47 U.S.C. Sec. 397(9)) defines NFFS. CPB provides additional policy
restrictions for claiming revenue as NFFS in the Financial Reporting Guidelines
(Guidelines). The IPA is to conduct an examination is accordance with attestation
standards established by the American Institute of Certified Public Accountants, and
examine, on a test basis, evidence that the station complied with the Guidelines for
claiming NFFS.

During our interviews with the IPAs we were told that they had just completed their audit
of the stations’ financial statements and believed that they could base their attestation
on the work performed for the financial statement audit. However, the requirements for
claiming NFFS as contained in the CPB Guidelines are unique and must be used when
attesting to the AFR. In addition, three IPAs assisted with the preparation of the AFRs
that they then attested as complying, in all material respects, with the CPB
requirements. Attesting to one’s own work is a violation of professional independence
requirements. Finally, we noted that one IPA did not identify a $90,000 transposition
error, involving the restricted portion of the radio CSG that appeared on the station’s
audited financial statements and AFR.

CPB relies on the IPAs to conduct attestation examinations of station AFRs in
accordance with auditing standards and to provide CPB with assurance that claimed
NFFS is accurate and complies with the Guidelines. Not testing for NFFS reporting
compliance, the lack of independence, and not identifying inaccuracies in reporting do
not provide CPB with the level of assurance anticipated by requiring an attestation
examination be conducted and certified to CPB.

Recommendation
   6) We recommend that CPB management work with the Office of Inspector General
      to develop agreed-upon-procedures for the IPA attestation examination of the
      AFR and to require that the IPA provide a separate report to CPB of exceptions
      identified during the attestation examination.

      Management Response

For recommendation 6, CPB management stated that they will work with the OIG to
develop procedures and reporting guidelines for attestation by IPAs. Additionally, they


                                           13
stated they hope to develop alternative procedures that do not unduly add to the
financial burden of stations in securing the appropriate attestation, with help from the
public broadcasting system and perhaps the IPA community.

       OIG Review and Comments

Based on CPB’s response, we consider recommendations 6 resolved but open pending
receipt of documentation evidencing enhanced attestation procedures and reporting
guidelines addressing IPA responsibilities.

Grant Expenditure Reporting and Accountability Over CPB Funds
Our survey found a lack of discrete accounting for CPB funds by station grantees,
inaccurate AFR reporting of CPB funds received, and concerns over the reliability of IPA
attestations on the accuracy of AFR certifications made to CPB. These concerns
coupled with CPB’s practice not to require CSG grantees to report CSG expenditures to
CPB, limited CPB oversight mechanisms, and the lack of an integrated system to track
and oversee grantee CPB financial information on a grant basis hindered CPB’s abilities
to maximize oversight efforts. These factors prevent CPB from effectively overseeing
the use of CPB funds to ensure CPB grant funds were spent within grant periods, final
CPB costs were accurately reported, and unused CPB funds were refunded to CPB.

   Reporting Grant Revenues and Expenditures

Our survey found inaccurate reporting of CPB grants received on AFRs. Further, CPB
does not require that CSG, Interconnection, Distance Service, Local Service or Rural
Listener Access Incentive Fund (RALIF) grant expenditures be reported to CPB on the
AFR or in any other grant financial reporting format. CPB does require that
programming, digital, Ready To Learn (RTL), and other grants/contracts submit a final
financial report on grant/contract activities.

The inconsistent treatment of grant financial reporting requirements does not provide a
sufficient level of financial accountability over CPB grants. Further, it does not provide
CPB with any financial information that CSG, Interconnection, Distance Service, Local
Service, or RALIF grant funds were spent and used in accordance with grant terms.

The AFR provides specific lines for stations to show the amounts of the CSG, Digital
Project, and Interconnection grants. It does not provide for a breakdown of other CPB
grants a station received such as Local and Distance Service Grants. While reviewing
station AFRs in the ISIS data base, we found that 8 of 23 radio stations in our survey
(35 percent) did not separately list the restricted portion of the CSG on their AFR, and 2
of the 17 television stations in our survey (12 percent) did not separately list the
Interconnection Grant on their AFR even though the AFR contains separate lines for
these funds. In addition, five television stations received Distance Service Grants.
However, three stations improperly included them as part of the Community Service
Grant on their AFR as opposed to reporting them under “Other CPB Funds” on the AFR.


                                            14
We could not determine whether one station included the grant on their AFR and the
fifth station correctly included the grant in the “Other CPB Funds” category on their AFR.

Proper recognition of the receipt of the CSG, Interconnection, Local and Distance
Service Grants is important because stations are responsible for identifying and tracking
expenditures of these funds and, at the conclusion of each grant reporting period they
must certify that the funds were spent in accordance with grant spending criteria.

We also found that many of the stations that received RTL project grants or digital
conversion grants either did not report the grant on the AFR in the year it was awarded
or reported only a portion of the grant in the year that it had been awarded. We
identified 13 television stations in our survey that received either a RTL or a Ready-To-
Lead-In-Literacy (RTLL) grant in FY 2007 or 2008. However, none of the 13 stations
reported receiving any RTL or RTLL funds as revenue from CPB on their FY 2007 or
2008 AFRs.

We also identified 22 radio and television stations as having received a Digital Grant in
FY 2007 or 2008. We found 7 stations did not report receiving any digital funds on their
AFRs. Four station’s AFRs reported receiving less than the grant award amount and
one station reported receiving more grant funds on its AFR than appeared in CPB’s
records. Finally, 11 stations reported CPB grant funds on their AFRs when
corresponding amounts did not appear in CPB’s records. From an oversight
perspective, these differences identify potential items to be resolved with grantees to
ensure the accuracy of the financial information reported to CPB.

   CPB Oversight Mechanisms

Currently, CPB’s oversight of the CSG related grants is limited to a desk review of the
financial statement audit report and the IPA’s AFR certification. The station’s financial
statement audit provides aggregate expenditure information but no specifics on CPB
grant expenditures. Further, the usability of this information is hampered by timing
differences in the grantee’s fiscal year and CPB grant period. CPB’s oversight relies
heavily on the IPA’s financial statement audit and the AFR attestation certification. As
previously reported, our survey found that CPB should not put much reliance on the
IPAs’ attestation certifications, because of limitations in the IPAs’ work.

Oversight of non-CSG grants/contracts (programming, digital, RTL grants, etc.) is
provided by program office project officer review and Office of Business Affairs review.
These grant agreements require grantees to submit periodic and final financial reports
that present budget information and actual expenditures by cost categories. While
these oversight activities enable CPB to identify budgetary over-runs, they do not
require grantees to separately report CPB expenditures. CPB funds are generally
comingled in these financial reports with other funding sources.

As previously referenced, there are also several timing differences that complicate CSG
oversight activities. There are the differences between CPB’s grant payment schedule,



                                            15
grant spending periods, and the reporting periods applicable to the various grants that
CPB provides to recipients. Another complication in accounting for CPB funds received
by grant recipients results from the different revenue recognition policies (deferred
revenue policies) used by grant recipients. Finally, grant recipients make mistakes in
reporting CPB grants received.

CPB’s fiscal year covers the period from October 1st through September 30th. CPB does
not require that station fiscal years agree with CPB’s fiscal year. A station’s fiscal year
is established by the licensee’s incorporation papers or the governmental unit’s fiscal
year. In our survey, all 40 stations had a July 1st through June 30th fiscal year. This
timing difference can create variances between CPB’s records of payments and
stations’ reporting of their fiscal year grant activities.

CPB grant periods further complicate the reporting of CPB revenues. The CSG is a
two-year grant that CPB provides to stations every year, thus, at the station level, there
is always an overlap of grant spending periods between the previous year’s grant and
the current year’s grant. The Television Interconnection grant is a one-year grant
provided annually. The Digital, RTL, and other grants can all have different grant
periods of up to three or more years depending on their work scope. Similarly,
depending on the type of grant and the contract terms; funds may be distributed to and
expended by recipients early in the life of the project or near the end of a long grant
spending period.

Further, in this environment, CPB grantees have demonstrated a variety of methods for
reporting the receipt and expenditure of grant funds. Some may recognize the entire
grant amount when the award is made even though they have not received or spent all
the funds; and other recipients may wait to recognize revenue when they have incurred
corresponding expenses.

CPB usually distributes one half of the fiscal year’s CSG and Interconnection Grants in
October and the second half the following March. These funds are shown on the AFR
which stations are required to submit electronically to CPB within five months after the
end of the station’s fiscal year. The AFR presents the station’s financial activities during
the station’s fiscal year. However, CPB’s grant distribution process can be delayed if
the AFR is not submitted timely or if CPB’s AFR desk review function identifies
problems with a station’s current year AFR. If a grant payment is delayed into the
station’s next fiscal year; the station’s reporting of that grant may also be delayed and
will be reported in the following year’s totals on its financial statements and AFR.

      Internal CPB Financial Information on Grant Awards and Expenditures

CPB’s internal financial information on grants awarded and related expenditures is
compartmentalized and not integrated to fully account for all grant expenditures by
grantee. Financial activities over CSG and related grants2 are handled by the Office of
Grants Administration in conjunction with the Office of Radio, while all other grants and
2
    CSG related grants include Interconnection, Distance Service, Local Service and RALIF grants.


                                                    16
contracts are handled by various CPB program offices in conjunction with the Office of
Business Affairs. Given CPB’s limited oversight resources and decentralized grant
oversight functions, a holistic system needs to be designed and implemented to provide
better internal mechanisms to identify potential problems as they arise in the reporting
of CPB grant expenditures.

CPB’s various information systems for tracking grant activities are not electronically
integrated to fully link CSG grant administration activities in ISIS with other CPB grant
activities (e.g., programming and digital grants) in GIFTS for the same grant recipient.
Cash payments to grantees are available from the Office of Budget and Finance, and
should be available in both ISIS (CSG and CSG related grants) and GIFTS
(programming, digital, and RTL grants, etc.). However, these systems are not
electronically integrated with CPBs Great Plains accounting system to readily obtain
CPB payment information recorded in the system. The ISIS system generates the
authorized CSG and related grant payments, which are batched and forwarded to
Budget and Finance for payment processing. CPB payment information is manually
entered into GIFTS. The Contract Request Search (CRS) function can access Great
Plains to identify CPB payments against specific grants/contracts in GIFTS, but cannot
access CSG payment information. To conduct our survey we obtained grantee financial
information from the Office of Budget and Finance, ISIS, as well as, the digital program
office to ensure we identified all CPB grant information awarded to grantees in our
survey.

Finally, none of these systems record grantee incurred CPB expenditures on a grant or
any other basis. For non-CSG grants/contracts the project officers receive interim and
final financial reports on each grant, which are retained in the project files. This
information is used to process payments. However, these reports do not require that
CPB grant funds be separately identified and reported. The costs reported generally
include non-CPB expenditures.

To provide effective oversight, CPB officials need to account for all CPB funds awarded
to a specific grantee and to track grantee expenditures by CPB grant. To facilitate
better oversight and grant administration, information systems need to be integrated,
streamlined, and fully account for all grant activities from procurement, grant/contact
award, performance, and final reporting of deliverables (programmatic and costs).

Recommendations

We recommend CPB management:

   7) Revise the Annual Financial Report to include a report of CSG, Interconnection,
      Distance Service, Local Service, RALIF, and other CPB grant expenditures by
      expense categories listed on Schedule E of the AFR.

   8) Require CSG grantees to submit an annual grant report to CPB accounting for
      opening CPB cash balances, CPB grant revenues received, CPB expenditures,


                                           17
      and CPB ending cash balances. This report should separately identify funds by
      CPB grant type (i.e., CSG, CSG radio restricted, Interconnection, Distance
      Service, Local Service, RALIF, and other CPB grants) for the period October 1,
      20XX – September 30, 20XX. This report should be reconcilable to the grantee’s
      financial records and to its annual financial statement audit. Additionally, the
      report should identify final reports for grants closed during the reporting period.
      The accuracy of this report should be certified to the grantee’s Chief Financial
      Officer and include a separation certification that CPB funds have not been
      expended on lobbying activities; reception or entertainment of public officials; and
      the other restrictions specified in the Television or Radio CSG General
      Provisions & Eligibility Criteria.

   9) Establish a centralized data base to track all CPB grants/contracts (i.e., CSG,
      CSG related, and non-CSG) by recipient to account for grant awards, payments
      to recipients, grantee/contractor reported expenditures, and unexpended CPB
      funds on hand at September 30th of each year to facilitate CPB oversight and
      accountability on a grant basis.

      Management Response

For recommendation 7, CPB management stated that they agreed with the intent of
recommendation 7 and will examine the feasibility of using the AFR to accomplish the
recommendation, as well as, alternative methods such as requiring the submission of
separate reports to document the expenditure of these funds.


For recommendation 8, CPB management stated that they agreed with the intent of
Recommendation 8 and we will work with the public broadcasting system to accomplish
the goal of accounting for the actual use of all CPB funds. CPB already requires a
separate certification that CSG funds have not been expended on lobbying or political
activities. CPB agreed with the recommendation to amend the current certification to
include all CPB funds.

For recommendation 9, CPB management stated that all CPB grants and contracts are
recorded in Great Plains by recipient, grant number and grant type (i.e. CSG, TV
Programming). The grant or contract amount is recorded as a liability and all payments
to recipients are processed against the individual liability. This ensures that payments
on a particular grant or contract cannot exceed the grant or contract amount. The
balance on any given grant or contract can be determined at any point in time.

To facilitate CPB oversight and accountability on a grant basis, CPB is developing
requirements for an enhanced internal grant-tracking system.




                                           18
       OIG Review and Comments

Based on CPB’s response, we consider recommendations 7, 8, resolved but open
pending receipt of documentation evidencing enhancements to Schedule E of the AFR
that reports CPB grant expenditures by expense category. In addition, the creation of
an annual report that encompasses the status of all CPB grant and expenditure activity
that can be reconcilable to the grantee’s financial records and to its annual financial
statement audit will help improve CPB’s ability to provide effective oversight of the funds
provided to grantees.

Based on management response, recommendation 9 remains unresolved until more
specificity is provided by CPB on its plans for developing an enhanced internal grant-
tracking system to facilitate project officer’s oversight of CPB grants.


                                  OTHER MATTERS

Stations Voluntarily Established Community Advisory Boards
We identified that 9 of the 18 state or local government licensees in our survey had a
CAB or an equivalent group of individuals that effectively performed the same function
for their stations; even though they were not required to comply with this requirement of
the Act. The Act stipulates that all public broadcasting stations, other than stations
which are owned and operated by a state, a political or special purpose subdivision of a
state, or a public agency, must establish a CAB.

The Act provides that the role of the CAB is advisory in nature. It stipulates that the
CAB shall advise the governing body of the station and therefore must be distinct from
and independent of the governing body. The purpose of the advisory board is to
provide a vehicle for effective community input to the station's governing body about
station programming, community service and impact on the community from the
station's major policy decisions. Congress believed that CABs would assist the stations
to develop programs and policies that address the specific needs of the communities
that they serve. However, we have found that the governing bodies of public radio and
television stations licensed to state universities and government agencies are often not
routinely involved in the management and oversight of their stations. Thus, lacking an
involved governing body and CAB; there is little opportunity for community input
regarding the operations of the station.

The fact that 9 of the 18 State and local government licensees in our survey have taken
the initiative to formally establish an advisory body to provide station management with
feedback to help improve the operations of their stations is a positive factor contributing
to the successful accomplishment of their missions and the overall mission of public
broadcasting.




                                            19
                                                                                Exhibit A

                              Scope and Methodology
We conducted a survey of 29 CPB licensees (17 television and 23 radio stations who
received 40 CSGs) including included 9 community licensees, 4 state and local
government licensees, and 16 university licensees; of which 2 were private universities.
Our review included a cross-section of licensees from across the system including: five
from California, five from Illinois, six from New York, five from North Carolina, six from
Virginia, and two from Wisconsin. We conducted this survey to develop a better
understanding of grantee accounting practices for CPB grants and to evaluate
compliance with the Communications Act requirements for open meetings, open
financial records, maintaining a CAB, EEO and, donor list and political activities.

At each station, we interviewed officials and accounting staff about their management
processes and accounting controls for CPB grants and compliance with
Communications Act requirements. Our procedures included gaining an understanding
of the stations’ accounting systems and their reporting of financial transactions for Fiscal
Years (FY) 2007 and 2008 on their AFRs. To assure ourselves that stations were
accurately recording and reporting the receipt and expenditure of CPB grant funds; we
traced these various amounts that the stations received through their revenue and
expense journals to final grant reports. We also focused on the proper accounting
treatment for Federal grants received by the stations. We determined whether grantees
discretely accounted for CPB revenues and expenditures by CPB grant type, including
the use of radio restricted funds and television interconnection grants.

We gained an understanding of the stations’ internal controls over the preparation of
CPB AFR and reviewed a small sample of underwriting and in-kind revenues for
compliance with CPB Financial Reporting Guidelines. We also interviewed the
independent public accountants for each of the grantees and reviewed applicable
working papers they prepared on internal controls, risk assessment, fraud
considerations, and testing performed in support of their attestation examination opinion
rendered on the AFR.

We reviewed records and documents supporting the stations’ compliance with the
Communications Act requirements to establish and conduct meetings of the Board of
Directors and CAB and to properly provide advance notice of those meetings to the
public, where applicable, financial and EEO information made available to the public,
and documentation supporting compliance with donor lists and political activities
prohibitions.

Our survey was conducted in accordance with the President’s Council on Integrity and
Efficiency/Executive Council on Integrity and Efficiency Quality Standards for
Inspections, dated January 2005. Our survey field work was performed during the
period August 2009 through May 2010.



                                            20
Exhibit B
Exhibit B
Exhibit B
Exhibit B
